CREDIT CARD AGREEMENT
AND DISCLOSURE
Variable Rate

United States Senate
Federal Credit Union
MEMBER/BORROWER(S) NAME AND ADDRESS

ACCOUNT/MEMBER NO.

DATE

John Sample
Jane Sample
123 Main Street
Anywhere, USA 00001

00000000

05/24/15

CREDIT LIMIT
$0

Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
for Purchases

ANNUAL PERCENTAGE RATE
for Balance Transfers

 VISA Smart Rate

9.50

 VISA Smart Rewards

%

This APR will vary with the market based on the Prime Rate.

9.50

%

This APR will vary with the market based on the Prime Rate.

ANNUAL PERCENTAGE RATE
for Cash Advances

9.50

%

This APR will vary with the market based on the Prime Rate.

Minimum Interest Charge

None

For Credit Card Tips from
The Consumer Financial
Protection Bureau

Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each
month. We will begin charging interest on cash advances and balance transfers on the
transaction date.
To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at:
http://www.consumerfinance.gov/learnmore

FEES
Set-up And Maintenance Fees
Annual Fee
Document Copy Fee

None
$20.00 for each copy of a merchant draft.

Paying Interest

Transaction Fees
Cash Advance & Balance
Transfers
Foreign Transactions
Penalty Fees
Late Payment
Returned Payment

None
1% of the transaction amount.

Up to $35.00 if your payment is received after the due date.
Up to $35.00 for each returned payment.

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new purchases)”. See your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Account agreement.
Periodic Rate:
The Purchase, Cash Advance and Balance Transfer daily periodic rate is
0.02603
%
Margin:

The Purchase, Cash Advance and Balance Transfer margin is

5.00

2010 ConmarSystems, Inc., Peachtree City, GA 30269 E-FORM 17041-6 Rev 12/12

%

Page 1 of 3

CREDIT CARD AGREEMENT AND DISCLOSURE (continued)
This Agreement will establish the terms and conditions of your credit card agreement with United States Senate Federal Credit Union. In this agreement, the words "you" and "your" mean any
person receiving and using the card and that by using the card for the first time "you" agree to all terms and conditions in this agreement. "Card" means the VISA Smart Rate or VISA Smart Rewards
credit card and any duplicates and renewals the Credit Union issues. "Account" means your VISA Smart Rate or VISA Smart Rewards credit card account with the Credit Union. "Credit Union," "we,"
"us," and "our" mean United States Senate Federal Credit Union. You must be a member of the Credit Union to apply for a credit card. Except to the extent that Federal Law is applicable, the laws of
the Commonweatlh of Virginia shall govern the validity, construction and enforcement of this Agreement and all matters arising out of the issuance and use of the Card.
USING THE ACCOUNT: Upon your approval for an account, the Credit Union will establish a
line of credit for you. Notification of your limit will be made when the card is sent to you. You
agree not to let your account balance exceed your approved credit limit.
RESPONSIBILITY: You promise to pay any and all charges incurred by you or by any person
whom you authorize to use the Credit Card issued to you, and any fees or charges incurred in
the recovery of a credit card, retrieval of transaction data, or collection of this account in
accordance with the terms and conditions issued by VISA International, Inc., and in accordance
with the policies established by the Credit Union.
Your obligation to pay the amount owed on your account continues until paid in full even though
an agreement, divorce decree or other court judgment to which the Credit Union is not a party
may direct someone else to pay the account balance.
JOINT ACCOUNT: If more than one person applies for the card each is individually responsible
for all amounts owed on the account and is jointly and severally responsible for all amounts
owed. This means the Credit Union can enforce the Agreement against any of you individually
or all of you together. Each may obtain credit advances without the knowledge of the other and
both are obligated to repay all advances made to the account. You agree to notify the Credit
Union of any address change.
USING THE CARD: You may use the card issued to you to make purchases from anyone who
accepts VISA Credit Cards. You may also obtain cash advances from the Credit Union, from
other financial institutions participating in the VISA program and from automated teller
machines (ATM's) that provide access to the VISA system. Your VISA Personal Identification
Number (PIN) is needed to obtain cash advance from an ATM. You agree not to use the card
for any illegal transactions such as advances for gambling or wagering where these practices
are in violation of the law.
VARIABLE RATE: Your account is subject to a Variable Rate which is based on the highest
Prime Rate as published in the Money Rates Section of The Wall Street Journal (“Index”) in
effect on the last day of each calendar quarter plus our Margin. The Index plus the Margin
equals the Interest Rate. Changes in the Index will cause changes in the Interest Rate on the
first day of the next billing cycle following the change. Increases or decreases in the Interest
Rate will result in like increases or decreases in the Finance Charge and will affect the amount
of your regularly scheduled payments that you will be required to make.
There is no limit on the amount by which the annual percentage rate can change during any
change date other than the maximum and minimum Annual Percentage Rates. The maximum
ANNUAL PERCENTAGE RATE that can apply is 18.00
%.
FINANCE CHARGES: The monthly periodic rate assessed on your account is based on an
annual percentage rate corresponding to a daily periodic rate and the type of account. A
Finance Charge will be imposed on Credit Purchases only if you elect not to pay the entire
New Balance shown on your monthly statement for the previous billing cycle within 25 days
from the date of that statement. If you elect not to pay the entire new balance shown on your
previous monthly statement within that 25 day period, a Finance Charge will be imposed on
the unpaid average daily balance of such Credit Purchases from the date of posting to your
account during the current billing cycle, and will continue to accrue until the date of the billing
cycle preceding the date on which the entire New Balance is paid in full or until the date of
payment if more than 25 days from the closing date. Cash Advances are always subject to
a Finance Charge from the date they are posted to your account and are not subject to
the 25-day grace period.
Balance Subject to Finance Charges: The balances subject to finance charge are the
average daily transaction balances outstanding during the month (new and previous). The
Average Daily Balance is determined by adding, after subtracting all payments, credits, and
cash advances for the billing period in which they were made, all the outstanding advance
balances and billed but unpaid finance charges for each calendar day of the billing period and
then dividing the total by the number of days in that billing period. Purchases posted to your
Account during the billing period are included only if the “New Balance” on your previously
assessed bill was not paid in full by the grace period.
OTHER CHARGES: a) $10 for each replacement Card, b) $20 for each VISA merchant draft
that you request; and c) Up to $35 for each returned payment. The fees and charges will be
handled by the Credit Union as an adjustment to the account balance and will not be charged
a Finance Charge.
LATE CHARGE: If your payment is received after the payment due date, you will be charged
up to $35.
MONTHLY PAYMENTS: Each payment you make on the account will restore your credit limit
by the amount of the payment that is applied to the principal amount of purchases and cash
advances. At any time your total new balance exceeds your credit limit, you must immediately
pay the amount over your credit limit.
A PAYMENT IS REQUIRED EACH MONTH: You must pay at least the minimum payment
shown on your statement by the date specified on your monthly statement. You can repay any
outstanding balance prior to maturity in whole or in part at your option without penalty. Your
monthly payment must be made directly to the address shown on your statement. If available,
you may have your minimum payment automatically deducted from your checking or savings
account. Payments received after 9:00 PM (Eastern Time) each day will be considered
received on the next business day.
The minimum periodic payment required for VISA Smart Rate and VISA Smart Rewards will
be either (a) 2.25% of your total new balance, minimum of $15 or (b) your total new balance if
it is less than $15, plus (c) any portion of minimum payments shown on prior statements which
remain unpaid and any other applicable charges. You will also be required to pay any amounts
over your credit limit or past due amounts.

2010 ConmarSystems, Inc., Peachtree City, GA 30269 E-FORM 17041-6 Rev 12/12

VISA Smart Rate and VISA Smart Rewards payments will be applied first to billed fees, then
to any previously billed and unpaid Finance Charges on purchases and cash advances, then
to the principal balance of purchases in the order they were posted to your account and then
to the principal balance of cash advances. If two or more purchases were posted on the same
day, your payment will be applied to the lowest amount first. However, in every case, in the
event you make a payment in excess of the required minimum periodic payment, the Credit Union
will allocate the excess amount first to the balance with the highest annual percentage rate and
any remaining portion to the other balances in descending order based on applicable annual
percentage rate. You understand that any payment that delays the repayment of Your unpaid
balance will increase Your Finance Charge and any payment that accelerates the reduction of
Your unpaid balance will decrease Your Finance Charges.
CREDIT BALANCES: If there is a credit balance due you, you may request in writing a full
refund of this credit balance at our address shown in this Agreement.
SECURITY: You grant us a security interest under the Uniform Commercial Code and under
any common law rights the Credit Union may have in any goods you purchase. If you give the
Credit Union a specific pledge of shares by signing a separate pledge of shares, your pledged
shares will secure your account. You may not withdraw amounts that have been specifically
pledged to secure your account until the Credit Union agrees to release all or part of the pledged
amount.
Your Account is secured by all other shares you have in any individual or joint account
with the Credit Union, except for shares in an Individual Retirement Account or in any
other account that would lose special tax treatment under state or federal law if given
as security. These other shares may be withdrawn unless you are in default under this
agreement. You authorize the Credit Union to apply the balance in your individual or
joint share accounts to pay any amounts due on your Account if you should default.
CROSS-COLLATERAL: If you have other loans with us, or take out other loans with us in the
future, collateral securing those loans will also secure your obligations under this Agreement.
However, unless you expressly agree otherwise, no dwelling secures your obligation.
DEFAULT: You will be in default: (1) if you fail to make any minimum payment or other required
payment by the date that it is due, (2) if you break any promise you make under this Agreement,
(3) if you die, file for bankruptcy or become insolvent, that is, unable to pay your obligations
when they become due, (4) if any attachment or garnishment proceedings are initiated against
you or your property, (5) if you default on any other indebtedness to the Credit Union, (6) if you
make any false or misleading statement in any credit application or credit update, or (7) if
something happens that the Credit Union believes may substantially reduce your ability to
repay what you owe.
When you are in default, the Credit Union has the right to demand immediate payment of your
full account balance without notice. If immediate payment is demanded, you will continue to
pay Finance Charges, at the periodic rate charged before default, until what you owe has been
paid, and any shares that were given as security will be applied towards what you owe.
If collections efforts are required by the Credit Union, you agree to pay all costs and expenses
incurred in the collection of any sum due, and in addition, if the holder hereof, after default,
shall place this note in the hands of an attorney or collection agency, for collection, to pay
reasonable attorney’s fees, interest and fines due on this note at the time of the employment
of such attorney or collection agency.
CREDIT INFORMATION: You understand that the Credit Union will review your accounts
periodically, and you hereby give your permission to, and authorize the Credit Union to investigate
and reassess your creditworthiness. You authorize the Credit Union to obtain information
concerning your credit history from all available sources now and in the future. You authorize the
Credit Union to disclose information regarding your account to credit bureaus and creditors who
inquire about your credit standing.
LIABILITY FOR UNAUTHORIZED USE: You may be liable for the unauthorized use of the card.
You will not be liable for unauthorized use that occurs after the issuer is notified, orally or in writing
at the address shown in this Agreement. If your card is lost or stolen you must report it to us
immediately.
LOSS OR THEFT OF CARD: If your Card, PIN or Account Number are lost or stolen, you should
immediately call (202) 224-2967 (within DC Metro Area) or 1 (800) 374-2758, Monday thru Friday,
8:30am to 4:00 pm Eastern Time. After hours, call 1 (800) 682-6075. If overseas, call collect (206)
352-4950.
MERCHANT DISPUTES: The Credit Union is not responsible for the refusal of any merchant or
financial institution to honor the card. The Credit Union is subject to claims and defenses (other
than tort claim) arising out of goods or services you purchase with the card if you have made a
good faith attempt but have been unable to obtain satisfaction from the merchant or service
provider, and (a) your purchase was made in response to an advertisement the Credit Union sent
or participated in sending to you; or (b) your purchases cost more than $50.00 and was made in
your state or within 100 miles of your home.
CHANGING OR TERMINATING YOUR ACCOUNT: You agree that the Credit Union may change
the terms of this Agreement from time to time after giving you any advance notice required by law
at your last known address. To the extent the law permits, and indicated in the notice to you, the
change will apply to your existing account balance as well as to future transactions. Your use of
the card after receiving notice or a change will also indicate your agreement to the change.

Page 2 of 3

CREDIT CARD AGREEMENT AND DISCLOSURE (continued)
You may request an increase in your credit limit either by written application or by phone. The Credit
Union has the right to reduce or terminate your credit limit at any time. You understand and
acknowledge that such action shall not affect your obligation to pay any outstanding balance PLUS
any finance and other charges you owe under this Agreement. Accounts that have been inactive
for one (1) year may be subject to termination at the renewal date. The card(s) you receive remain
the property of the Credit Union and you must recover and surrender to the Credit Union ALL cards
upon request or upon termination of this Agreement whether by you or the Credit Union.
FOREIGN TRANSACTIONS: When you use your Card at a merchant that settles in currency other
than US dollars, the charge will be converted into the US dollar amount. The currency conversion
rate used to determine the transaction amount in US dollars is either a rate selected by VISA from
the range of rates available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate VISA itself receives, or the government-mandated rate in
effect for the applicable central processing date, plus 1 percent of the transaction amount, which
may be billed separately on your account or included in the transaction amount. This 1% adjustment
is made for all international transactions regardless of whether there is a currency conversion
associated with the transaction. The conversion rate in effect on the processing date may differ
from the rate in effect on the transaction date or posting date.
EFFECT OF AGREEMENT/WAIVER: This Agreement is the contract which applies to all transactions
on your account even though the sales, cash advances, credit or other slips you sign or receive may
contain different terms. The Credit Union can delay enforcing any of its rights any number of times
without losing them. Each provision of this agreement must be considered as part of the total
agreement and cannot in any way be severed from it. However, you also agree that should any part of
this agreement be found invalid, it will in no way affect the remainder of the agreement.
STATEMENT AND NOTICES: You will receive a statement each month showing transactions on
your account. You are responsible for your minimum monthly payment even in the event your
statement is late or returned to the Credit Union. Statements and notices will be mailed to you at
the most recent address you have given the Credit Union. Notice to any one of you will be
considered notice to all.
PERSONAL IDENTIFICATION NUMBER (PIN): We will furnish you with a Personal Identification
Number (PIN). You agree to keep the PIN secret. You also agree you won't write the PIN on the
Card or anything you keep with the card. Your use of the PIN and Card in getting a cash advance
or making a purchase is agreed to constitute your signature for purposes of such transaction.
USE OF CARD. You may use your Card to conduct any transaction or obtain any Credit Union
service permitted by law. You agree that the use of the Card to obtain a service or effect a
transaction that is illegal under the law of any jurisdiction where originated, affected or
accomplished will be a default and breach of this agreement. We may terminate the access to
the service or withdraw the right to use the Card and/or demand the return of all Cards or other
access devices issued to you. If illegal use of your Card occurs, you waive the right to sue Us,
and agree to indemnify and hold Us harmless from any suits or other legal action or liability
which may be asserted, directly or indirectly, against Us arising out of, or resulting from, the
illegal use of the Card.
GOVERNING LAW: Except to the extent that Federal Law is applicable, the laws of the
Commonwealth of Virginia shall govern the validity, construction and enforcement of this
Agreement and all matters arising out of the issuance and use of the Card.
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
United States Senate Federal Credit Union
National Capitol Station
P.O. Box 77920
Washington, DC 20013-8920

You must contact us:
 Within 60 days after the error appeared on your statement.
 At least 3 business days before an automated payment is scheduled, if you want to stop
payment on the amount you think is wrong.
You must notify us of any potential errors in writing [or electronically]. You may call us, but if
you do we are not required to investigate any potential errors and you may have to pay the
amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We
will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain why we
believe the bill was correct.
While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question, or report you as delinquent on that
amount.
 The charge in question may remain on your statement, and we may continue to charge
you interest on that amount.
 While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
 We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
 If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.
 If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you as delinquent if you do not
pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the
right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current
mailing address, and the purchase price must have been more than $50. (Note: Neither of these
are necessary if your purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
writing at:
United States Senate Federal Credit Union
National Capitol Station
P.O. Box 77920
Washington, DC 20013-8920
While we investigate, the same rules apply to the disputed amount as discussed above. After
we finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

In your letter, give us the following information:
 Account information: Your name and account number.
 Dollar amount: The dollar amount of the suspected error.
 Description of problem: If you think there is an error on your bill, describe what you believe
is wrong and why you believe it is a mistake.

SIGNATURES
By signing below you agree to be bound by the Terms and Conditions of this Agreement. You acknowledge receiving a copy and reading the Credit Card Agreement and
Disclosure. You understand that this Agreement grants the Credit Union a Security Interest in all individual and joint accounts you have with the Credit Union, now and in the
future with the exception of those accounts that would have an adverse tax consequence if pledged as collateral.

X
BORROWER SIGNATURE

X
DATE

X
WITNESS

CO-BORROWER SIGNATURE

DATE

X
DATE

2010 ConmarSystems, Inc., Peachtree City, GA 30269 E-FORM 17041-6 Rev 12/12

WITNESS

DATE

Page 3 of 3

